TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Improvements Are Needed to Better Identify
                       and Prevent Erroneous Refunds



                                      September 21, 2006

                              Reference Number: 2006-40-137




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 21, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Are Needed to Better Identify and
                             Prevent Erroneous Refunds (Audit # 200540016)

 This report presents the results of our review to determine how well the Internal Revenue Service
 (IRS) identified, classified, processed, and collected erroneous refund amounts issued to
 individual taxpayers. We also determined whether the IRS has a plan to reduce the number of
 erroneous refunds issued.

 Impact on the Taxpayer
 The IRS issues millions of refunds to taxpayers each year but sometimes inadvertently issues
 refund checks in error. In Calendar Year 2004, taxpayers returned $302 million in refund checks
 for a variety of reasons, including mistakes caused by the IRS. The issuance of erroneous
 refunds creates unnecessary burdens on both taxpayers and the IRS. Taxpayers must correspond
 with the IRS to get the errors resolved and receive the refund checks to which they are entitled.
 In addition, the IRS must use its limited resources to resolve the errors and collect monies that
 are not voluntarily returned.

 Synopsis
 Although the IRS has some procedures in place to reduce the number of erroneous refunds
 issued and to recover those that have been issued, it can take additional steps to identify the
 causes of these refunds; prevent, collect, and account for erroneous refunds; and improve
 oversight. Because many erroneous refunds may go undetected, the actual number of erroneous
                                     Improvements Are Needed to Better
                                   Identify and Prevent Erroneous Refunds




refunds issued may be significantly higher than that reported by the IRS. The problems we
identified include the following:
    •   Causes of returned refunds are not identified and tracked.
    •   Quarterly report information gathered on erroneous refunds is not being used adequately
        to identify the causes of or reduce the number of erroneous refunds. The IRS does not
        take comprehensive actions to determine the causes for the erroneous refunds, and is
        missing an opportunity to reduce the number of returned refund checks and the resources
        necessary to resolve them.
    •   Requests for assistance with collection actions have not been successful in getting
        large-dollar cases to the local IRS Office of Chief Counsel for litigation, which could
        significantly extend the time for collection. A judgmental sample of cases reviewed
        indicated the requests to revenue officers for assistance often were (80 percent of the
        time) not responded to timely or not responded to at all.
    •   The IRS does not properly record amounts written off as uncollectible so it can verify
        whether taxpayers include the amounts as income on their tax returns. Because of IRS
        errors in preparing the Cancellation of Debt (Forms 1099-C), most of the Forms were not
        included in IRS compliance programs designed to ensure taxpayers included the amounts
        as income on their tax returns.
    •   Lack of inventory controls and oversight allowed improper collection actions by the IRS
        and may have contributed to the number of cases not worked timely. Manual processes
        used to control, track, and process erroneous refund cases are often inefficient. The IRS
        submitted a Request for Information Services1 in late 2003 to automate some of the
        erroneous refund processes but there is no current commitment date for when this
        Request will be completed or implemented.

Recommendations
The Commissioner, Wage and Investment Division, should establish procedures to identify and
include all erroneous refund counts and amounts when reporting erroneous refund statistics,
identify and code the reasons for the returned refund checks, and use this information to establish
procedures to reduce the number of returned refunds; use the quarterly inventory reports to
identify trends on the causes of erroneous refunds and suggest possible corrective actions;
consider revising erroneous refund procedures to include a financial analysis by Submission
Processing Accounting function employees to determine collectibility and refer those cases

1
  The Request for Information Services process provides a common framework to document, control, monitor, and
track requests for changes to IRS computer systems and for support.
                                                                                                                2
                                 Improvements Are Needed to Better
                               Identify and Prevent Erroneous Refunds




directly to the local Office of Chief Counsel; perform an annual inventory reconciliation; and
update the Request for Information Services to ensure it will meet the requirements for oversight
of the erroneous refund program.
The IRS has already taken steps to correct the written procedures that will help ensure the
millions of dollars the IRS writes off as uncollectible will be included in the computer system
data to verify whether taxpayers have included these amounts in their income. Also, the IRS will
follow up on the automation of the erroneous refund control process.

Response
The IRS agreed to four of our five recommendations. The IRS agreed to institute two separate
procedures to identify and include all erroneous refund counts and amounts when reporting
erroneous refund statistics. The IRS will gather data regarding returned refunds to identify any
trends or procedural improvements needed to reduce the number of returned refund checks. The
IRS agreed each Accounting function will resume submitting quarterly inventory reports on
non-rebate erroneous refunds to the Submission Processing Site Erroneous Refund Analyst to
ensure timely and correct reports. The Submission Processing sites will ensure that additional
requirements for oversight and control of erroneous refunds will be included in a new Request
for Information Services to be submitted. Also, the IRS will continue the development and
implementation of the Erroneous Refund Database. A new Request for Information Services
will be submitted for a one-time reconciliation (clean-up) of all erroneous refunds, and a second
Request for Information Services will provide each of the Erroneous Refund Units with a
monthly extract of new erroneous refunds.
The IRS did not agree to consider revising its erroneous refund procedures to include a financial
analysis conducted electronically by Accounting employees, stating the Accounting function is
not responsible for providing compliance analysis and its employees would need substantial
training and a job reclassification to do compliance analysis. Management’s complete response
to the draft report is included as Appendix IV.

Office of Audit Comment
Even though there would be a need to reclassify and train a limited number of Accounting
function employees to determine the collectibility on higher dollar erroneous refund cases, we
believe the cost to train these employees would be far less than the loss of millions of dollars
currently not being considered for litigation, and subsequently not being recovered. However, if
the IRS determines the existing process is adequate and continues to submit Courtesy
Investigations to revenue officers for collectibility determinations, the Wage and Investment and
Small Business/Self-Employed Divisions need to ensure the revenue officers timely work the


                                                                                                    3
                                Improvements Are Needed to Better
                              Identify and Prevent Erroneous Refunds




Courtesy Investigations and refer appropriate cases to the IRS Office of Chief Counsel as
required by the Internal Revenue Manual guidelines.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                            4
                                              Improvements Are Needed to Better
                                            Identify and Prevent Erroneous Refunds




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Procedures Are in Place to Help Identify and Collect
          Some Erroneous Refunds..............................................................................Page 3
          Causes of Returned Refunds Are Not Identified and
          Tracked .........................................................................................................Page 4
                    Recommendation 1:........................................................Page 5

          Quarterly Inventory Reports Are Not Being Used to
          Minimize the Issuance of Erroneous Refunds ..............................................Page 5
                    Recommendation 2:........................................................Page 7

          Requests for Assistance in Collecting Erroneous Refunds
          Are Not Being Worked Timely.....................................................................Page 8
                    Recommendation 3:........................................................Page 9

          Some Erroneous Refund Income Is Not Being Included
          in the Internal Revenue Service Reporting Process......................................Page 10
          Erroneous Refund Inventory Controls Need to Be Improved ......................Page 12
                    Recommendations 4 and 5: ..............................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Management’s Response to the Draft Report ......................Page 19
        Improvements Are Needed to Better
      Identify and Prevent Erroneous Refunds




         Abbreviations

IRS   Internal Revenue Service
RIS   Request for Information Services
                                          Improvements Are Needed to Better
                                        Identify and Prevent Erroneous Refunds




                                                 Background

The Internal Revenue Service (IRS) issues millions of refunds to taxpayers each year. In
Calendar Year1 2004, the IRS issued 106 million refunds totaling $227.6 billion to individual
taxpayers. In handling this substantial volume of refunds, the IRS sometimes inadvertently
issues refund checks in error (e.g., for incorrect amounts or to the wrong taxpayer). The
erroneous refunds resulting from clerical or administrative mistakes are known as “non-rebate”
erroneous refunds because correcting the errors does not require the recalculation of the tax
liabilities. Examples of these types of erroneous refunds include:
       •   The IRS credits an estimated tax payment to the wrong taxpayer and refunds it to the
           wrong taxpayer.
       •   The IRS moves the decimal point when recording a payment, increases the amount by a
           factor of 10 or 100, and refunds the excess.
       •   The IRS mistakenly issues a duplicate refund.
In 2004, over 489,000 income tax refunds were returned by taxpayers; were returned by financial
institutions; or had to be changed, reissued, or transferred to other accounts by the IRS. Some of
the refunds were returned because of problems with the taxpayer’s bank account number or
address. These would not be considered erroneous refunds. Refunds returned because of IRS
errors could be considered erroneous refunds.
The IRS often discovers erroneous refunds as a result of contact from taxpayers. For example, a
taxpayer may contact the IRS stating he or she did not receive a refund or did not receive credit
for a payment. When this occurs, an IRS employee will research the taxpayer’s account to try to
determine the problem. If the employee discovers that an erroneous refund was issued to a
second taxpayer, a letter is sent to the second taxpayer requesting the amount of the erroneous
refund be repaid. The account information is then sent to the local IRS Wage and Investment
Division Submission Processing Accounting function to handle any further correspondence with
the taxpayer who received the erroneous refund. Erroneous refunds caused by the IRS generally
have a shorter collection statute period than cases with tax balances due (2 years versus
10 years). Therefore, these cases are manually controlled outside of the IRS’ automated
collection procedures, through use of file folders and history sheets to document actions taken.
If the taxpayer does not voluntarily repay an erroneous refund, the IRS will offset any future
refunds the taxpayer was to receive until the debt is paid in full or the statute period expires. As
a last resort, the IRS can file a claim in court. However, the IRS will take this action only if the

1
    All years refer to calendar year unless specifically noted otherwise.
                                                                                              Page 1
                                       Improvements Are Needed to Better
                                     Identify and Prevent Erroneous Refunds



erroneous refund amount was large enough to warrant the additional time and cost. If the
taxpayer does not repay the full amount of the erroneous refund before the statute period expires,
the IRS writes off the remaining debt as uncollectible and issues a Cancellation of Debt
(Form 1099-C) to the taxpayer. Cancelled debt is considered income for tax purposes. The
Form 1099-C informs the taxpayer that he or she should include the cancelled debt as income on
their tax return. For 2004, the IRS wrote off as uncollectible approximately 2,200 erroneous
refunds, worth approximately $5.8 million.
Each Submission Processing site reports the inventory of new, erroneous refund cases identified
each quarter to IRS Submission Processing Accounting function management. The
Commissioner, Wage and Investment Division, receives a consolidated annual report of the
uncollectible amounts written off. The top three causes of erroneous refunds written off in Fiscal
Years 2002 through 2004 were:
    1) Payment was misapplied (i.e., applied to the wrong taxpayer account).
    2) Taxpayer claimed nonreceipt of a refund check, a replacement check was issued, and the
       taxpayer subsequently cashed both checks.
    3) One or more duplicate refund checks (manual refund and computer-generated refund)
       were issued.
This review of IRS actions taken to identify and resolve non-rebate erroneous refunds was
performed at the Wage and Investment Division Submission Processing Sites2 in
Atlanta, Georgia; Austin, Texas; Fresno, California; and Kansas City, Missouri. We interviewed
officials from the IRS Office of Chief Counsel and the Small Business/Self-Employed Division.
We also reviewed national data from the IRS Individual Master File.3 This review was
performed during the period January 2005 through May 2006. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 2
                                      Improvements Are Needed to Better
                                    Identify and Prevent Erroneous Refunds




                                      Results of Review

Although the IRS has some procedures in place to reduce the number of erroneous refunds
issued and to recover those that have been issued, it can take additional steps to identify the
causes of these refunds; prevent, collect, and account for erroneous refunds; and improve
oversight. Because many erroneous refunds may go undetected, the actual number of erroneous
refunds issued may be significantly higher than that reported by the IRS. The specific problems
we identified include the following:
    •   Causes of returned refunds are not identified and tracked.
    •   Quarterly report information gathered on erroneous refunds is not being used adequately
        to identify the causes of or reduce the number of erroneous refunds.
    •   Requests for assistance with collection actions have not been successful in getting
        large-dollar cases to the local IRS Office of Chief Counsel for litigation, which could
        significantly extend the time for collection.
    •   The IRS does not properly record amounts written off as uncollectible so it can verify
        whether taxpayers include the amounts as income on their tax returns.
    •   Lack of inventory controls and oversight allowed improper collection actions by the IRS
        and may have contributed to the number of cases not worked timely.

Procedures Are in Place to Help Identify and Collect Some Erroneous
Refunds
The IRS has some procedures to prevent erroneous refunds from being issued and to recover
those that have already been issued.4
    •   The IRS has a computerized process to identify manual refunds scheduled for issuance if
        the amount is within a specified variance of another refund already issued to the same
        taxpayer on the same account. A report is generated indicating the refund should be
        reviewed for appropriateness before issuance.
    •   The IRS has guidelines and processes for resolving erroneous refund cases after they
        have been identified.


4
 Besides the steps listed, the IRS convened a task force on erroneous refunds. The task force report was issued in
1998. However, we were unable to locate any information regarding follow-up actions taken by the IRS to address
or implement the task force’s recommendations.
                                                                                                           Page 3
                                 Improvements Are Needed to Better
                               Identify and Prevent Erroneous Refunds



   •   The IRS has procedures and programming to (1) freeze an account and offset a refund
       due a taxpayer in 1 year and (2) systemically apply the refund to a balance due for
       another year. This allows the IRS to collect on the amount due for an erroneous refund
       previously issued.
To help improve the erroneous refund process, the Kansas City Submission Processing Site
Erroneous Refund Unit developed an integrated database and automated reporting system to
track inventory, maintain case histories, and produce follow-up reminders and other reports.
However, this automated system is not used at any other Submission Processing site.

Causes of Returned Refunds Are Not Identified and Tracked
In 2004, taxpayers voluntarily returned approximately 51,000 refunds totaling $302 million.
While some of these were erroneous refunds, others were not. For example, sometimes
taxpayers return refund checks that are over a year old and ask to have them reissued; others ask
that the refund check be reissued in a different name or applied as payment on a different tax
year.
During 1 week at 1 site, we reviewed 52 refunds returned by taxpayers and determined
approximately 50 percent of them had been incorrectly issued due to an IRS error. The IRS
codes these refunds as “returned refunds” but does not code the returned checks in a manner that
allows the IRS to determine the causes of the errors. When a refund check is returned, the check
and the taxpayer correspondence are reviewed to determine what action needs to be taken. The
conditions leading to the issuance of the erroneous refund are recorded in the individual case file,
but this information is not consolidated so the IRS could use it to identify any trends, training
issues, or systemic problems that may be causing the errors. The IRS was unable to provide any
information on recent steps taken to reduce the number of erroneous refunds being issued, the
causes for erroneous refunds, or any recent reviews of the process.
The IRS could better address the problems causing these refunds if it recorded the reasons for the
returned refunds and established processes that corrected the problems prior to the refunds being
issued. The IRS would then be able to identify the actual size of the problem, and it would have
better data on which to base any corrective actions. Coding and tracking the causes of the
returned and erroneous refunds would allow the IRS to focus on training or systemic problems
that might be causing the majority of the errors. Reducing the number of errors would decrease
the IRS resources necessary to handle and resolve the returned and erroneous refund checks,
while also reducing the burden on taxpayers.
Also, if taxpayers return refund checks before the IRS discovers the refunds were issued in error,
the IRS does not classify the refunds as erroneous or include them in its administrative reports on
the number of erroneous refunds. Therefore, the number of erroneous refunds issued by the IRS
may be significantly higher than that reported. Even if erroneous refunds returned by taxpayers
before the IRS became aware of the problem were classified and reported as erroneous, the size

                                                                                             Page 4
                                     Improvements Are Needed to Better
                                   Identify and Prevent Erroneous Refunds



of the problem would still be understated because there are additional erroneous refunds that go
undiscovered by the IRS and not returned by taxpayers.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should establish
procedures to identify and include all erroneous refund counts and amounts when reporting
erroneous refund statistics. In addition, the Division should code each returned refund to identify
the reason for the returned refund, analyze this information, and establish procedures to reduce
the number of returned refund checks.
        Management’s Response: IRS management agreed with the recommendation and
        will institute two separate procedures to identify and include all erroneous refund counts
        and amounts when reporting erroneous refund statistics. IRS management will also
        gather data from campus sites regarding returned refunds during the period April 15
        through July 15, 2007, to identify any trends or procedural improvements needed to
        reduce the number of returned refund checks.

Quarterly Inventory Reports Are Not Being Used to Minimize the
Issuance of Erroneous Refunds
The IRS Submission Processing Accounting function in each site maintains a list of the
erroneous refunds discovered by the IRS that have not been returned. At the end of each quarter,
the Accounting functions should prepare a report to show the number of new erroneous refunds
they received, the amount of money involved, the IRS areas that made the errors causing the
erroneous payments,5 and any corrective actions those areas have taken to reduce the number of
errors. The reports for each Submission Processing site should then be sent to the Chief,
Individual Master File Branch.
We asked officials in the Individual Master File Branch office whether these quarterly reports for
each Submission Processing site are consolidated into a single, quarterly or annual summary
report or reviewed periodically at a national level for trends and causes. They responded that no
such use has been made of these reports. No effort has been made to use these reports to track
the increase or decrease in the numbers and types of errors being made that cause erroneous
refunds. Copies of the quarterly reports have not been provided to the Director, Submission
Processing, who is responsible for the processing of taxpayer returns and the uncollected amount
of erroneous refunds that is written off each year. Further, the Chief, Individual Master File
Branch, was unable to provide copies of these reports for the last 3 years when we requested


5
 A duplicate refund issued by the Taxpayer Advocate’s office or a payment misapplied by the Receipt and Control
function are examples.
                                                                                                        Page 5
                                    Improvements Are Needed to Better
                                  Identify and Prevent Erroneous Refunds



them. When each individual site was requested to provide a copy of their quarterly reports for
the last 3 years, only 5 of the 10 Submission Processing sites were able to supply the requested
reports. IRS management could not determine why five sites could not provide complete data or
why some of the reports did not contain all the required information. The complete or partial
reports we were able to obtain from all 10 sites indicate that at least 14,000 new erroneous refund
cases were identified in 2004, for at least $59 million.
IRS procedures require that these quarterly reports be generated, but the IRS has not provided
guidance to help ensure these reports are analyzed properly and acted on. Consequently, the IRS
has not used the data to make process improvements and reduce errors. Using the quarterly
reports as a management tool and analyzing all of the data presented would give the IRS a
chance to identify nationwide trends, best practices, and problem areas that are in need of
attention. The quarterly reports are the primary source of detailed and recent information on the
causes of erroneous refunds. The reports could be used by the IRS to help identify:
   •     Best practices for identifying erroneous refunds.
   •     The number of cases being addressed by each site.
   •     Trends in error rates by site.
   •     Discrepancies in reporting results.
Figure 1 shows the number of erroneous refund cases identified by four IRS Submission
Processing Sites during 2002-2004, as well as the numbers and amounts of erroneous refunds
written off as uncollectible in those 3 years. We included only those sites that process individual
tax returns and provided complete data for the time period covered. The remaining sites that
process individual tax returns (located in Atlanta, Georgia; Brookhaven, New York;
Memphis, Tennessee; and Philadelphia, Pennsylvania) did not provide complete data.
  Figure 1: Erroneous Refund Cases Identified and Written Off As Uncollectible
                          Calendar Years 2002–2004
                                                                                             Percentage
                     Erroneous    Erroneous     Percentage       Erroneous     Erroneous     of Identified
       Submission     Refund       Refund       of Identified     Refund        Refund          Refund
       Processing      Cases        Cases          Cases          Amount        Amount         Amount
          Site       Identified   Written Off   Written Off      Identified    Written Off   Written Off

       Andover         1,071         485           45%           $8,474,939     $949,418        11%
       Austin          6,697         472            7%          $14,271,594     $821,962            6%
       Fresno          6,630         917           14%          $10,117,401   $2,526,765        25%
       Kansas City     7,306         654            9%          $23,873,931   $1,062,654            4%
         Totals       21,704        2,528          12%          $56,737,865   $5,360,799            9%
   Source: IRS Quarterly Reports (as available) and IRS data on write off amounts for 2002 –2004.


                                                                                                         Page 6
                                      Improvements Are Needed to Better
                                    Identify and Prevent Erroneous Refunds



As shown in Figure 1, there are significant differences in the number of erroneous refund cases
identified and written off among some of the Submission Processing sites. For example, the
4 sites shown in Figure 1 processed a comparable number of tax returns during the 3 years we
tracked. However, the Andover Submission Processing Site identified far fewer erroneous
refunds than the other 3 sites, yet it wrote off a significantly higher percentage (45 percent) of the
erroneous refund cases it identified. For the Fresno Submission Processing Site, the percentage
of the dollar amount written off is high (25 percent) in comparison to the other sites.
The cause and feedback information is supposed to be available on the quarterly reports. It
would help inform IRS management if the feedback and corrective actions were having an
impact on the number of errors. The quarterly reports are the only documents on which the
causes of all the identified erroneous refunds are reported to IRS management.6 If the IRS made
use of the quarterly reports, it would help ensure each Submission Processing site is tracking all
the required information and using the information to determine what areas are making the
errors, so appropriate corrective actions could be taken to reduce the number of erroneous
refunds. The IRS was unable to supply any recent reports on actions it has taken to reduce the
number of erroneous refunds or reviews of the causes and corrective actions.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure the
quarterly inventory reports on erroneous refunds are completely and correctly prepared,
summarized, distributed to those IRS managers responsible for writing-off erroneous refunds,
and used to identify trends on the causes of erroneous refunds and suggest possible corrective
actions.
        Management’s Response: IRS management agreed with this recommendation and
        stated that in January 2007, each Submission Processing Accounting function will resume
        submitting quarterly inventory reports on non-rebate erroneous refunds to the Submission
        Processing Erroneous Refund Analyst. The Erroneous Refund Analyst will review the
        data to ensure that the reports are timely and correctly prepared. On a quarterly basis,
        Submission Processing staff will meet and share this information with Headquarters,
        Accounts Management, and Compliance analysts to discuss preventative measures for
        reducing erroneous refunds. The first meeting will be scheduled tentatively for
        January 15, 2007.




6
  The IRS prepares a report annually on those accounts that are deemed uncollectible and written off. The cause
information for these accounts is available to IRS management if they request the detail backup information.
                                                                                                           Page 7
                                        Improvements Are Needed to Better
                                      Identi4 and Prevent Emoneous Refitnds




Requests for Assistance in Collecting Erroneous Refunds Are Not
Being Worked Timely
A recipient of an erroneous refund has a legally enforceable obligation to repay the money to the
IRS. However, the legal effect of this obligation is not necessarily the same as the obligation to
pay the proper amount of tax. Because of the difference in legal effect, different collection
recovery methods and different statutes of limitations may apply. Generally, the statute of
limitations is 2 years to collect an erroneous refund that is the result of an error by the IRS. To
expedite collection, the IRS has instructions for Submission Processing Accounting function
employees who work the erroneous refund cases to request assistance (Courtesy In~estigation)~
fiom the local revenue officers if the outstanding erroneous refund is above a specific amount.
The revenue officers can contact the taxpayer directly and request payment of the amount due,
suggest the taxpayer make monthly payments on the balance, and request the taxpayer extend the
statute of limitations in order to pay the entire amount. The revenue officer can also send the
case to the local IRS Office of Chief Counsel to request litigation to obtain a court judgment. A
court judgment in the IRS' favor extends the statute of limitations (for at least 20 years).
IRS procedures state that revenue officers should respond to these requests for assistance within
45 calendar days of receipt. Our review of a judgmental sample of these cases indicated the
requests to revknue officers for assistance often were (80 percent of the time) not responded to
                                                 turned'wiih no action taken. For example,
                                                 referred to the revenue officer but returned
without being sent to the local IRS Office of Chief Counsel or collected because of
"low priority." There were no records or evidence in the case files to indicate that any of these
cases were sent to the Office of Chief Counsel for review. Based on the results of our review,
we believe millions of dollars of erroneous refunds are written off as uncollectible after limited
or no effort by the IRS to recover the money.
By the end of 2004, the IRS had identified approximately 14,000 new accounts with erroneous
refund activity. It wrote off as uncollectible 972 accounts over a specified amount, for a total of
almost $5.3 million. The IRS Office of Chief Counsel indicated that its records showed it
worked on only 23 erroneous refund cases during an 18-month period ending July 2005 and that
it would be interested in taking action on the higher dollar erroneous refund cases. In 2004, the
IRS wrote off 77 high-dollar erroneous refunds over a specific amount, for a total of almost
$2.8 million in lost funds.
Many of the cases worked by revenue officers involve large-dollar taxes due over a specific
amount. The majority of erroneous refund amounts are less than this specific amount. Under
current procedures, the Submission Processing Accounting functions working the erroneous
refund cases cannot send a case directly to the local IRS Office of Chief Counsel to consider


 A request for assistance tkom a revenue officer in the IRS Collection field function.
                                                                                             Page 8
                                        Improvements Are Needed to Better
                                      Identify and Prevent Erroneous Refunds



litigation. The revenue officers must determine the likelihood of obtaining payment from the
taxpayer before a case can be forwarded to the local IRS Office of Chief Counsel. IRS officials
advised us they are developing new procedures that will make working of erroneous refund cases
by revenue officers an even lower priority. This will create a significant problem because
revenue officers are the only IRS employees able to refer erroneous refund cases to the local IRS
Office of Chief Counsel for appropriate action. Courtesy Investigations for erroneous refund
cases may not be appropriate work for revenue officers since their specialized collection tools
and authorities cannot be used to collect erroneous refunds.

Recommendation
Recommendation 3: The Wage and Investment Division, with input from the IRS Office of
Chief Counsel, should consider revising its erroneous refund procedures to include a financial
analysis conducted electronically by Submission Processing Accounting function employees
working erroneous refund cases to determine collectibility on cases above a specific dollar
tolerance, and to refer those cases with collection potential directly to the local IRS Office of
Chief Counsel. We believe adopting this change would be a more efficient use of resources.
           Management’s Response: IRS management did not agree with this
           recommendation. IRS management responded that the Accounting function is
           responsible for monitoring and maintaining erroneous refund cases, not providing
           compliance analysis or determining collectibility on erroneous refund cases. Employees
           in the Accounting functions are not qualified to provide these collection services without
           substantial training and job reclassification.
           Office of Audit Comment: Even though there would be a need to reclassify and train
           a limited number of Submission Processing Accounting function employees to determine
           the collectibility on higher dollar erroneous refund cases, we believe the cost to train
           these employees would be far less than the loss of millions of dollars currently not being
           considered for litigation, and subsequently not being recovered. However, if the IRS
           determines the existing process is adequate and continues to submit Courtesy
           Investigations to revenue officers for collectibility determinations, the Wage and
           Investment and Small Business/Self-Employed Divisions need to ensure that the revenue
           officers timely work the Courtesy Investigations and refer appropriate cases to the IRS
           Office of Chief Counsel as required by the Internal Revenue Manual8 guidelines.




8
    The Internal Revenue Manual contains the IRS’ internal guidelines.
                                                                                               Page 9
                                     Improvements Are Needed to Better
                                   Identify and Prevent Erroneous Refunds



Some Erroneous Refund Income Is Not Being Included in the Internal
Revenue Service Reporting Process
When the IRS is unable to collect all of the erroneous refund from the taxpayer prior to the
expiration of the statute of limitations, the nonreturned amount is written off as uncollectible. In
2004, the IRS wrote off approximately $5.8 million as uncollectible erroneous refunds. When
the IRS writes off an erroneous refund of $600 or more, it must issue a Form 1099-C to the
taxpayer. The taxpayer should include the written-off amount as income.
The IRS does not have an automated system for tracking and controlling the erroneous refund
cases. Each Submission Processing Accounting function prepares its Forms 1099-C at the end of
each year. Copies of the Forms are mailed to the taxpayer and sent to the appropriate IRS
processing center to be included in the IRS computer system. We requested a list from the IRS
of the Forms 1099-C issued in each of the past 3 years. This information is not kept in a central
location and was unavailable. We provided the IRS with the necessary information for a data
extract of the electronic records to obtain the information. The data extract showed only
141 Forms 1099-C were issued in 2004, yet the IRS wrote off 2,225 accounts as uncollectible.
IRS employees at the Submission Processing Accounting functions indicated they had prepared
more than 141 Forms 1099-C in 2004.
Figure 2 shows the total numbers and dollar amounts of erroneous refund accounts written off as
uncollectible during 2004. It also shows the number of these cases that required a Form 1099-C
because they were at least $600. The information indicates only 126 of the 1,272 accounts worth
at least $600 were included in the IRS data. This amounts to only 10 percent of the number of
cases and 7 percent of the dollar amounts written off.
     Figure 2: IRS Forms 1099-C Issued Versus Uncollectible Accounts - 2004

          Erroneous Refund Accounts                  Number of Accounts           Total Dollars

 Accounts written off as uncollectible                         2,225                $5,772,926
 Accounts with erroneous refunds of $600 and
                                                               1,272                $5,513,131
 over
 Forms 1099-C for $600 and over shown in
                                                                 126                  $385,464
 the IRS computer system
 Accounts without Form 1099-C information                      1,146                $5,127,667
Source: Electronic data obtained from IRS.

Because the Form 1099-C information was not in the IRS computer system, the IRS was unable
to verify whether $5.1 million in income it had written off as uncollectible was included as

                                                                                            Page 10
                                     Improvements Are Needed to Better
                                   Identify and Prevent Erroneous Refunds



taxable income by the taxpayers. Submission Processing Accounting function management was
not aware of this problem.
We reviewed the processes used to prepare and submit the Form 1099-C to determine the cause
of the problem. We provided some of the detailed information and results to the IRS
Modernization and Information Technology Services organization programming staff, which
confirmed the Submission Processing Accounting functions were incorrectly preparing the
Forms 1099-C. IRS instructions do not clearly indicate that the name to use in the
CREDITOR’S name section of the Form (see Figure 3) is “Detroit Computing Center.”9
Consequently, the Forms were prepared with “Internal Revenue Service” or
“US Treasury Dept.,” or similar names in the CREDITOR’S name section. The specific name
typed in this section is important because it must match the name on file in the IRS computer
system under the associated Federal Employer Identification Number.
                     Figure 3: 2004 Cancellation of Debt (Form 1099-C)




    Source: IRS Tax Forms.

When the CREDITOR’S Federal identification number and CREDITOR’S name on the
Form 1099-C do not match, one computer program rejects the information and sends it to an
error file. This error file is supposed to be reviewed and the information corrected and reinput to
the IRS computer system. Research by the IRS programming staff indicated the error file is not
being acted upon to correct all of the errors; consequently, the majority of the Form 1099-C
information was missing from the IRS computer system. This may have been a problem for a



9
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
                                                                                                     Page 11
                                     Improvements Are Needed to Better
                                   Identify and Prevent Erroneous Refunds



significant period of time. We traced the problem back as far as 2001, but it also may have been
occurring in prior years.
Management Action: The Wage and Investment Division instituted changes to its Internal
Revenue Manual to show the correct Federal Employer Identification Number and name to be
used on a Form 1099-C prepared by the IRS. We also notified another IRS area about this
problem so its Internal Revenue Manual could be checked for similar issues and updated if
necessary.

Erroneous Refund Inventory Controls Need to Be Improved
We reviewed the erroneous refund process, including documentation in the erroneous refund
case histories10 at four of the Submission Processing sites to determine if the IRS was following
procedures. One site had developed a local computer program to assist with the control and
tracking of all the activities involved with working erroneous refund cases. It has automated
reports that assist with inventory control, follow-up, and payments. The rest of the sites do not
use such a system. They use a manual system to control inventory and ensure that taxpayers are
contacted, payments are posted, and timely follow-up contacts are made when necessary.
However, it does not appear these sites are consistent in using a manual system to control
inventory.
We identified in the IRS Individual Master File erroneous refund cases that were not in the
manual case inventories of the sites. The IRS was unaware of these cases until we asked for case
documentation. The responses indicated a number of problems: cases were lost when
transferred between sites, cases were not followed up properly, and cases were not always being
received from field offices when an erroneous refund was identified. Documentation of case
reviews by local management was minimal, and there was no annual reconciliation of the
inventories to the erroneous refund cases shown on the IRS Individual Master File. There is no
taxpayer contact, collection, or follow-up on the cases not included in the manual inventories.
In addition, the IRS does not always follow its process to ensure collection actions are
discontinued once the collection statute on an account expires. The IRS took actions to collect
erroneous refunds after the statute period had expired on some cases in the manual inventories.
When the IRS discovers it has taken an improper collection action, it must contact the taxpayer
and refund any payments made after the statute expiration date if the taxpayer wants the payment
back. Because erroneous refund cases are worked manually, the IRS does not have an automated
system with which to inform employees assigned to the cases that the statutes of limitations have
expired.



10
  The case histories should contain documents showing everything being done to collect the amount owed from the
taxpayer.
                                                                                                       Page 12
                                     Improvements Are Needed to Better
                                   Identify and Prevent Erroneous Refunds



In late 2003, the IRS submitted a Request for Information Services (RIS)11 to automate the
manual processes involved with the inventory control and dates for actions needed to collect
erroneous refunds. Computer data would then be available to produce the quarterly and annual
reports on erroneous refund activities and could be used to produce tracking and due date reports
to improve IRS’ efficiency in collecting the outstanding erroneous refunds. The original
completion date for the RIS was September 2004. However, it was never completed, and there is
no revised completion date. The Kansas City Submission Processing Site has developed its own
integrated database and automated reporting system for erroneous refunds.
Management Action: The Wage and Investment Division Customer Services Submission
Processing Accounting function has appointed a person to be responsible to follow through with
the RIS until it is operational.

Recommendations
Recommendation 4: The Commissioner, Wage and Investment Division, should perform an
annual reconciliation of erroneous refund inventories against the IRS Individual Master File
cases coded as erroneous refund accounts.
        Management’s Response: IRS management agreed with this recommendation. The
        Submission Processing office will ensure that additional requirements for oversight and
        control of erroneous refunds will be included in a new RIS that will be submitted with an
        implementation date of January 2008. The operating divisions and the Modernization
        and Information Technology Services organization must weigh the priority of this request
        against other competing demands for Information Technology services. Also, the
        Submission Processing office will continue to pursue the development and
        implementation of the RIS for the Erroneous Refund Database. The Submission
        Processing office will follow up with the Modernization and Information Technology
        Services organization for a status update by February 2007.
Recommendation 5: The Commissioner, Wage and Investment Division, should have the
RIS reviewed to ensure it will meet all requirements for oversight and control of the erroneous
refund program at all levels.
        Management’s Response: IRS management agreed with this recommendation. The
        Submission Processing office will submit a new RIS by November 2006, with an
        implementation date of January 2008, for a one-time reconciliation (clean-up) of all
        erroneous refunds. Based on the Modernization and Information Technology Services
        organization’s acceptance of this RIS and delivery of the request, the Submission


11
  The RIS process provides a common framework to document, control, monitor, and track requests for changes to
IRS computer systems and for support.
                                                                                                      Page 13
                         Improvements Are Needed to Better
                       Identify and Prevent Erroneous Refunds



Processing office will orchestrate a one time clean-up with its Accounting functions of
the Erroneous Refund Databases.
Additionally, the Submission Processing office will submit a second RIS by
November 2006, with an implementation date of January 2008, which will provide each
of the Erroneous Refund functions with a monthly extract of new erroneous refunds.
Combined, these improvements will significantly enhance the Submission Processing
office’s ability to monitor and control the erroneous refund program at all levels.




                                                                                  Page 14
                                       Improvements Are Needed to Better
                                     Identify and Prevent Erroneous Refunds



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine how well the IRS identified, classified, processed, and
collected erroneous refund amounts issued to individual taxpayers. We also determined whether
the IRS has a plan to reduce the number of erroneous refunds that are issued. To accomplish our
objective, we:
I.       Evaluated the IRS’ procedures for identifying, processing, and collecting erroneous
         refunds.
         A. Reviewed Internal Revenue Manual1 procedures.
         B. Interviewed IRS employees.
         C. Reviewed representative cases in each site.2
         D. Reviewed IRS Individual Master File3 data.
         E. Reviewed data to determine if Cancellation of Debt (Form 1099-C) was issued when
            required.
II.      Determined if the IRS has a plan to reduce or eliminate the number of erroneous refunds
         issued.
         A. Interviewed IRS management.
         B. Researched IRS web sites for reports and data.
         C. Researched for any material weakness previously reported.
III.     Determined if the IRS properly reported all erroneous refunds (volumes and dollars).
         A. Interviewed IRS management regarding reports used and data collected.
         B. Obtained and reviewed IRS data on:
             1. Returned refunds from all sources.
             2. Erroneous refunds discovered.


1
  The Internal Revenue Manual contains the IRS’ internal guidelines.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                            Page 15
                                      Improvements Are Needed to Better
                                    Identify and Prevent Erroneous Refunds



             3. Erroneous refunds written off.
We obtained numbers of cases from the information in the IRS Individual Master File. We
obtained returned refund check data by searching for any record with a Cancelled Refund
Deposited in the Calendar Year 2004 file, used the Taxpayer Identification File data at the end of
Calendar Year 2004 to obtain inventory detail of cases with an Erroneous Refund Freeze4 on the
account at some time during the year, and pulled data files for accounts with an Erroneous
Refund for Calendar Years 2002, 2003, and 2004 to look at the individual year data. There are
no projections in the numbers presented.
Our request for the IRS to provide the electronic data on Forms 1099-C issued resulted in very
few showing as issued. Some of the sites were able to provide lists of the Forms 1099-C they
had issued. We manually checked these lists to the Integrated Data Retrieval System5 to
determine if the Form 1099-C information was recorded in the IRS records. We discovered that
not all of the information was being included in the IRS electronic data. The details on a few
cases were given to the IRS Modernization and Information Technology Services organization,
which researched its processes to locate the missing data and provided an explanation of the
problems.
We reviewed a judgmental sample of 185 erroneous refund cases only to confirm whether
procedures were being followed and to confirm IRS interview statements that could not be
validated in the computer data, such as the number of Courtesy Investigation6 forms that were
issued and returned. The sample cases were pulled from the available inventory files in each site
since the IRS could not provide us current inventory figures for all of the campuses. We
attempted to select a random sample at two of the campuses, but not all of the cases were
available for review. Therefore, a judgmental sample was taken because the population of cases
was not available and we did not intend to project the results of this case review to the
population.
From the actual work at one site, we reviewed a judgmental sample of 52 returned refund cases
(all cases received for the period) to determine what types of and why refund checks were being
returned. This sample represents 1 week’s worth of the correspondence reviewed in 1 returned
refund work unit. We did not select or review any cases of this type from the other returned
refund work units across the nation during this same period, so the population size is unknown.
A judgmental sample was taken because we did not intend to project the results of this case
review to the population.



4
  An Erroneous Refund Freeze is a code the IRS uses to identify accounts appearing to have an erroneous refund
issued to the taxpayer.
5
  The IRS computer system capable of retrieving or updating stored information; in works in conjunction with a
taxpayer’s account records.
6
  A request for assistance from a revenue officer in the IRS Collection field function.
                                                                                                         Page 16
                              Improvements Are Needed to Better
                            Identify and Prevent Erroneous Refunds



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Glory Jampetero, Lead Auditor
Steven Vandigriff, Senior Auditor
Andrea McDuffie, Auditor
Nelva Usher, Auditor
Layne Powell, Information Technology Specialist




                                                                                   Page 17
                               Improvements Are Needed to Better
                             Identify and Prevent Erroneous Refunds



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection, Small Business/Self-Employed SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
   SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed
       Division SE:S:CLD
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                    Page 18
             Improvements Are Needed to Better
           Identify and Prevent Erroneous Refunds



                                                Appendix IV

Management’s Response to the Draft Report




                                                     Page 19
  Improvements Are Needed to Better
Identify and Prevent Erroneous Refunds




                                         Page 20
  Improvements Are Needed to Better
Identify and Prevent Erroneous Refunds




                                         Page 21
  Improvements Are Needed to Better
Identify and Prevent Erroneous Refunds




                                         Page 22
  Improvements Are Needed to Better
Identify and Prevent Erroneous Refunds




                                         Page 23
  Improvements Are Needed to Better
Identify and Prevent Erroneous Refunds




                                         Page 24
